National Aeronautics and Space Administration

Office of Inspector General
Washington, DC 20546-0001




                               November 6, 2008

TO:            Executive Director, NASA Shared Services Center
               NASA Chief Information Officer
               Assistant Administrator for Procurement

FROM:          Assistant Inspector General for Auditing

SUBJECT:       Final Memorandum on Review of NASA’s Consolidation of Information
               Technology Purchases under the Outsourcing Desktop Initiative
               (Report No. IG-09-001; Assignment No. S-08-005-00)


The Office of Inspector General received allegations that the implementation of Mission
Focus Review (MFR) Recommendations to consolidate information technology (IT)
purchases through NASA’s two Outsourcing Desktop Initiative (ODIN) contracts would
result in (1) NASA paying higher prices for IT purchases, (2) inappropriately expanding
the scope of the ODIN contracts without required recompeting, (3) insufficient personnel
and equipment to absorb the workload, and (4) noncompliance with Federal Acquisition
Regulation (FAR) and NASA guidance for simplified acquisition, small business set-
asides, or micro-purchases. During the course of our review to assess this allegation, we
received additional, related allegations, which we incorporated into our review.

The ODIN contracts comprise three categories of IT equipment and service purchases.
Category 1 IT purchases include ODIN-supplied desktop services for general-purpose
computing. Category 2 IT purchases comprise non-ODIN supported hardware and
software systems. Category 3 IT purchases include peripherals and software as well as
stand-alone IT systems. We reviewed category 1 and 3 IT purchases. We did not review
category 2 IT purchases. We performed our review from November 2007 through
August 2008. (See Enclosure 1 for details on the Review’s scope and methodology.)

Executive Summary
We found that by consolidating category 1 IT purchases, NASA could achieve
efficiencies and associated benefits including cost effectiveness, through value-added
services included in the cost of an IT purchase made through ODIN. We determined that
for category 3 IT purchases, in some instances, ODIN’s prices for specific items were
higher than prices advertised by IT suppliers dealing through the Internet. During our
review, we also found that NASA does not have formalized procedures for negotiating
price modifications from ODIN and does not provide instructions for employees on how
to seek and identify lower costs than ODIN’s for category 3 IT purchases. Providing
                                                                                                         2



price negotiation procedures and instructions could provide NASA cost savings for
category 3 IT purchases in the future.

We found that the increased use of ODIN was within the contracts’ statements of work
and also complied with all provisions of FAR or NASA guidance for simplified
acquisition, small business set-asides, or micro-purchases. Additionally, ODIN’s
performance ratings through the first quarter of FY 2008 continued to exceed the
contract requirement ratings. This would indicate that ODIN had sufficient resources
in place to service their customer base.

We recommended that the Executive Director, NASA Shared Services Center (NSSC),
working in conjunction with the Assistant Administrator for Procurement and the NASA
Chief Information Officer, 1 (1) institute formalized procedures for seeking price
modifications from ODIN; (2) develop instructions for employees on how to seek and
identify lower costs for IT peripherals that do not require installation and maintenance
support; and (3) monitor prices in the ODIN electronic catalog (eCatalog), and compare
them to offerings from alternative sources.

Management’s comments on the draft of this memorandum are responsive (see
Enclosure 2). In a consolidated response, NASA management concurred with all three of
our recommendations. The recommendations are, therefore, considered to be resolved
but will remain open for reporting purposes until all corrective actions have been
completed and we have verified completion of those actions.

Background
At NASA’s Strategic Management Council meeting in August 2006, the then-Associate
Administrator announced the formation of a team to conduct a study to identify resources
that could be redeployed to more directly support NASA’s missions. The study—the
MFR—was designed to provide recommendations for improving operations and reducing
costs. MFR recommendations called for consolidating IT purchases, including desktop
computers and networking services as well as IT peripherals, through NASA’s two ODIN
contracts. The recommendations were implemented July 9, 2007, in a memorandum
from the then-Associate Administrator in which he approved moving forward with the
consolidation and stated that implementing the recommendations would “achieve
efficiencies and associated IT security benefits, resulting in better services to the NASA
workforce, as well as avoiding unnecessary costs, so that resources can directly support
NASA’s mission.”




1
    In the draft of this memorandum, issued August 29, 2008, our recommendation was addressed to the
    Assistant Administrator for Procurement, working with the NASA Chief Information Officer. At
    management’s request, we are now addressing our recommendation to the Executive Director, NSSC, to
    work with the Assistant Administrator for Procurement and the NASA Chief Information Officer.
                                                                                         3



The ODIN contracts separate computer desktop service purchases into three categories:
   Category 1 purchases include ODIN-supplied hardware and software and desktop
      services, which include workstation and network services for overall general-
      purpose computing in support of NASA activities such as e-mail, Web browsing,
      report preparation, presentation creation, meeting scheduling, spreadsheet
      generation and general scientific and engineering application development and
      execution.

   Category 2 purchases include NASA- and other contractor-supplied systems that are
      installed and maintained by ODIN but not supported by ODIN in the event of
      failure.

   Category 3 purchases (peripherals and software) include hardware and software
      purchases not covered by category 1 or 2. This category also includes ODIN
      eCatalog procurements and stand-alone IT purchases. Some of the
      procurements are for scientific and laboratory uses; NASA maintains these
      systems. Other procurements are additions to category 1 systems. For
      additions to category 1 systems, ODIN is responsible for maintaining the
      resulting system in line with Federal security requirements. ODIN will facilitate
      repairs through the item manufacturer for ODIN computer customers. When the
      warranty expires, it is up to the purchaser to pay for repairs or buy new
      equipment.

In August 2007, in a letter to his state’s U.S. senator, a NASA employee alleged that
consolidating NASA’s IT purchases through ODIN resulted in requiring NASA staff to
purchase “virtually all IT hardware and software through the ODIN contractor.” The
complainant believed that NASA employees should be able to purchase items outside of
the ODIN contracts at the best price possible through any vendor. The complainant made
the following allegations:

   •   The increased use of ODIN resulted in higher purchasing costs to NASA for the
       purchase and provisioning of desktop and laptop computers, cell phones, personal
       data assistants, and other IT peripherals.
   •   The increased use of ODIN was not within the scope of the contracts’ statements
       of work, the contracts should have been recompeted, and the contracts did not
       comply with FAR and NASA guidance for simplified acquisition, small business
       set-asides, or micro-purchases.
   •   The personnel and equipment assigned by ODIN were not sufficient to absorb the
       additional workload.
   •   NASA’s procurement procedures and guidance were not adequate to address
       implementation of the recommendations and the increased use of ODIN so close
       to the end of the fiscal year.
                                                                                                         4



We interviewed the author of the initial complaint regarding his objections to
implementation of the MFR recommendations. He agreed that category 1 IT purchases
made through ODIN ensure better security and configuration control. However, he
believed that for category 3 items, NASA employees should be able to purchase those
items outside of the ODIN contract at the best price possible through any vendor.

In support of his allegations, the complainant identified 18 items 2 such as printers, hard
drives, computer terminals, and other IT peripherals for which he had compared ODIN’s
prices with prices from suppliers on the Internet. According to his calculations, the
Internet prices averaged 12 percent less than ODIN’s prices. It was the complainant’s
belief that a 12 percent savings would result in significant savings to NASA.

During our review, a second NASA employee filed a complaint about ODIN IT
purchase prices, stating that his organization was buying a printer and the initial ODIN
eCatalog price for the item was 40 percent higher than the price listed by an Internet
vendor. The second complainant challenged ODIN’s initial price and was able to
negotiate a final price that was approximately 15 percent higher than typical Internet
prices. The complainant emphasized the lack of formal procedures for negotiating price
reductions with ODIN personnel and said that negotiating the price for the printer felt like
“buying a car.”

A third complaint was filed by another NASA employee who wanted to buy a stand-
alone desktop 3 computer. This third complainant stated that the retail price quoted by
the manufacturer for the system was $5,162.00 and that the manufacturer’s price for
selling to the Government was $4,174.61. The complainant had attempted to purchase
the computer on his own, using his Government purchase card, but was informed that
NASA policy requires that all computer purchases be made through ODIN. He
purchased the computer through ODIN at a cost of $5,655.06, or 35 percent more than
the manufacturer’s Government price offering. According to the complainant, ODIN did
not provide set up or installation support for the hardware or software. He also stated that
other NASA staff associated with the purchase were confused by their first exposure to
making purchases through ODIN, and neither the complainant nor any of the other
NASA staff were aware a process existed through which they could negotiate a lower
price than ODIN’s.

NASA Lacks Formalized Procedures for Seeking Price Modifications
 from ODIN for IT Peripherals and Software
We found that implementation of the recommendations to consolidate category 1 IT
purchases through ODIN would be cost effective because of the value-added services
included in the cost of an IT purchase through ODIN. However, we found that NASA

2
    We did not validate the comparison of these 18 items or re-perform the calculations.
3
    A stand-alone desktop computer is a computer not permanently connected to a local area network or wide
    area network; therefore, it does not require standard IT security configurations.
                                                                                                                 5



had not provided procedures for negotiating price modifications from ODIN or
instructions to NASA employees on how to identify and take advantage of potentially
lower costs when purchasing category 3 IT equipment.

ODIN is required through its contracts to maintain IT security configurations of
equipment, such as laptop and desktop computers, to NASA and Federal standards.
Through its contracts, ODIN is also responsible for provisioning—installation,
configuration, and maintenance—of IT equipment requiring Federal and Agency security
settings and providing other services including pre-purchase testing, 4 tagging for
inventory, and tracking the asset for the Agency—services not generally provided by
other IT vendors. However, the focus of all three complaints related to excessive price
markup associated with category 3 ODIN eCatalog items. Thus, we sampled category 3
items to determine whether ODIN’s prices were higher than market averages. We
selected a cross section of 25 items from the 485 category 3 items listed in ODIN’s
eCatalog and compared the listed price with vendor prices offered over the Internet (see
items numbered 1 through 25 in Table 1). Overall, prices averaged 27.37 percent higher
in ODIN’s eCatalog than on the Internet. We found that prices for 21 of the 25 items
averaged 33.7 percent more in ODIN’s eCatalog; the remaining four items (2, 6, 18, and
24) averaged 5.85 percent less in ODIN’s eCatalog. One item was 174 percent higher in
ODIN’s eCatalog than on the Internet.

Table 1: Price Comparison: ODIN eCatalog vs. Internet Sampling, May 19, 2008
                                                                                                 Internet        Price
Item                                                                                              w/tax+       Difference
 No.      Description                                                              ODIN          shipping    (percentagea)
    1
    2
    3
    4
    5

      6
      7                    Table contained proprietary commercial information not routinely
                           released under the Freedom of Information Act.
     9
    10
    11
    12
    13

    14

    15
    16    e

    17
    18


4
    Prior to adding an item to the catalog, testing is done on the model to determine if the item will be
    compatible with, and not adversely affect the security of, the work-stations to which it will be attached.
                                                                                                               6



Table 1: (continues)
                                                                                                Internet          Price
Item                                                                                             w/tax+         Difference
 No.      Description                                                              ODIN         shipping      (percentagea)
   19
   20

     21
     22
     23

     24
     25

a
    Numbers in parentheses identify percentage difference in price for items that listed for less in ODIN’s
    eCatalog than on accessed Internet vendor sites.

We met with ODIN representatives to discuss the results of our comparison. When we
asked about the price differences, an ODIN representative stated that some prices from
our sample appeared to be up to 3 years old and that if price differences are brought to
ODIN’s attention, adjustments are made. Adjustments notwithstanding, prices found in
ODIN’s eCatalog up to 3 years old suggest that during the past 3 years, prices for some
items available through the ODIN eCatalog were not reviewed or adjusted by either
ODIN or NASA to ensure prices remained competitive.

When we asked whether ODIN had documented procedures explaining how it adjusts or
updates eCatalog prices, ODIN personnel stated that there was an automated function
through which prices associated with the products in the eCatalog were updated nightly
to match to ODIN’s major IT supplier (XXX, xxxxxx xx xxxxxxxxx, xxxxxx). The
process is described in the ODIN product-feed process document, a technical document
that describes uploading pricing data from XXX’s product database to the corresponding
ODIN eCatalog. The ODIN product-feed process document also stated that data for
products not supplied by XXX had to be manually entered, priced, and maintained by
individual site administrators/staff.

We tested ODIN’s automated pricing function using the 25 items from our original ODIN
eCatalog/Internet sample selected May 19, 2008. Our intent was to compare ODIN’s and
XXX’s electronic catalog prices for those 25 items on July 24, 2008, to see if they were
the same in both catalogs. Eleven of the 25 items were no longer in ODIN’s eCatalog
and were not in XXX’s electronic catalog. For the remaining 14 items, ODIN’s eCatalog
prices averaged 5.89 percent higher than prices for the same 14 items in XXX’s
electronic catalog.

We discussed the results of the second price comparison with a representative of ODIN
who stated that the price differences most likely resulted from including shipping, general
and administrative charges, and installation and asset tracking fees. This rationale is
supported by the ODIN product-feed process document, which notes that the ODIN price
is calculated according to a formula that includes variables such as cost, tax, and fees.
                                                                                          7



We therefore concluded that the difference between ODIN and XXX prices was
reflective of the services ODIN provides. We also concluded that, for items in XXX’s
product database, ODIN’s automated price update function was operating as intended.
Nevertheless, as evidenced by the results of our first sample taken May 19, 2008, of
prices from multiple Internet suppliers, ODIN’s eCatalog prices are not always reflective
of market conditions (other IT vendor prices). Further, as indicated by the presence of
the 3-year-old prices found in the first sample, we determined manual updates were not
always performed.

We also discussed the results of our May 19, 2008, sample with the Associate Chief
Information Officer for Architecture and Infrastructure. He agreed that the Office of the
Chief Information Officer (OCIO) could do a better job of monitoring the ODIN
eCatalog prices to ensure they are representative of market conditions. We also noted
that there appeared to be no formalized price-negotiation process, as exemplified by the
complainants’ comments, and that one complainant characterized his negotiation efforts
as time consuming and stressful. The OCIO official stated that NASA has a waiver
policy employees can use to purchase items from suppliers other than ODIN. We found,
however, that the waiver policy was being implemented on a Center-by-Center basis and
only applied when ODIN did not supply the needed item via eCatalog. The waiver did
not cover purchasing IT items from suppliers other than ODIN simply because ODIN’s
price was not competitive.

Although we concluded that consolidating category 1 IT purchases under ODIN is
beneficial to NASA because of the value-added factor, we also concluded that NASA
should institute formalized price negotiation procedures with ODIN. The Agency should
also provide instructions to NASA employees on how to identify and take advantage of
potentially lower costs when purchasing IT equipment and should disseminate the
instructions NASA-wide. Providing price negotiation procedures could provide NASA
cost savings in the future. Finally, the Agency should monitor prices in the ODIN
eCatalog and compare them to offerings from alternative sources.

Recommendations, Management’s Response, and Evaluation of Management’s
 Response
Recommendation 1. The Executive Director of the NSSC, working in conjunction
with the Assistant Administrator for Procurement and the NASA Chief Information
Officer, should institute formalized procedures for seeking price modifications from
ODIN.

       Management’s Response. Concur. As a result of direction from the Executive
       Director of the NSSC, the ODIN Program Office will develop a program notice
       to the ODIN Program Board formalizing a process that Centers will follow for
       conducting price re-determinations for catalog purchases. The ODIN Program
       Office, in conjunction with Center delivery order contracting officers and technical
       representatives, will ensure that price modifications are negotiated when
       appropriate. Development of these formalized processes and procedures are
                                                                                            8



       already in progress and the program notice is to be issued no later than
       October 31, 2008.

       Evaluation of Management’s Response. Management’s actions are responsive.
       The recommendation is resolved but will remain open for reporting purposes until
       all corrective actions have been completed and we have verified completion of
       those actions.

Recommendation 2. The Executive Director of the NSSC, working in conjunction
with the Assistant Administrator for Procurement and the NASA Chief Information
Officer, should develop instructions for employees on how to seek and identify lower
costs for IT peripherals that do not require installation and maintenance support.

       Management’s Response. Concur. Per direction from the Executive Director of
       the NSSC, the ODIN Program Office will disseminate instructions to Agency
       ODIN users for contacting the ODIN Program Office when catalog prices for IT
       peripherals not requiring ODIN installation and maintenance support do not
       reflect current market conditions. The ODIN Program Office in conjunction with
       Center delivery order contracting officers and technical representatives will
       ensure that modifications to existing eCatalog prices are negotiated when
       appropriate. Dissemination of these instructions is to occur no later than
       October 31, 2008.

       Evaluation of Management’s Response. Management’s actions are responsive.
       The recommendation is resolved but will remain open for reporting purposes until
       all corrective actions have been completed and we have verified completion of
       those actions.

Recommendation 3. The Executive Director of the NSSC, working in conjunction
with the Assistant Administrator for Procurement and the NASA Chief Information
Officer, should monitor prices in the ODIN eCatalog and compare them to offerings
from alternative sources.

       Management’s Response. Concur. The ODIN Program Office will receive
       direction from the Executive Director of the NSSC to update the Agency ODIN
       Surveillance Plan in order to establish the appropriate level of surveillance
       required by the ODIN Program Board to adequately review ODIN catalog prices
       for reasonableness and consistency with current market prices. Development of
       this update is already in progress and the surveillance plan is to be revised no later
       than October 31, 2008.

       Evaluation of Management’s Response. Management’s actions are responsive.
       The recommendation is resolved but will remain open for reporting purposes until
       all corrective actions have been completed and we have verified completion of
       those actions.
                                                                                                              9



Increased Use of ODIN Was within the Contracts’ Scope and Complied with
  FAR and NASA Guidance
We found that consolidating IT purchases under the ODIN contracts complied with their
original statements of work and that no recompetition of the contracts was necessary.
The use of ODIN to supply computer desktop services, communication services,
facsimile services, and video services was within the scope of the contracts’ statements of
work. Therefore, NASA was not required to recompete the ODIN contracts to
accommodate the implementation of the MFR recommendations.

Simplified acquisition and micro-purchases are not applicable to either of the ODIN
contracts because both contracts exceed FAR simplified acquisition threshold 5 and the
micro-purchase threshold. 6 ODIN contract NAS5-98144 has a not-to-exceed threshold of
$7,785,815,649 and ODIN contract NAS5-98145 has a not-to-exceed threshold of
$9,474,521,365.

With regard to small business set-aside provisions, 70 percent of the ODIN contracts
subcontracting goal, or roughly 25 percent of their cumulative goal, was set aside for
small businesses. NASA procurement personnel provided the breakdown of ODIN’s
large and small businesses in calendar year 2007:

       •   large business (Lockheed Martin) — $51,568,423 (42.8 percent)
       •   small business set-asides (various) — $68,817,025 (57.2 percent)

Based on the totals provided, the ODIN contracts comply with provisions of FAR and of
NASA procurement guidelines for small business set-asides.

We further concluded that the ODIN contracts complied with all relevant provisions of
NASA guidelines and with FAR for simplified acquisition, small business set-asides, or
micro-purchase procedures.

ODIN Resources Were Sufficient to Absorb the Additional Workload
We found that ODIN was in compliance with contractual performance requirements and
supplied personnel and equipment sufficient to absorb the additional workload. To assess

5
    FAR Subpart 2.1, Definitions. Simplified acquisition thresholds are $100,000 (excludes acquisitions of
    supplies or services to support a contingency operation related to nuclear, biological, chemical, or
    radiological attack, as determined by the head of an agency); $250,000, for contract awarded and
    performed, or purchase made, inside the United States; and $1 million for contract awarded and
    performed, or purchase made, outside the United States.
6
    FAR Subpart 2.1, Definitions. The micro-purchase threshold is generally $3,000, except for acquisitions
    of construction subject to the Davis-Bacon Act ($2,000), services subject to the Service Contract Act
    ($2,500), and supplies or services used to support a contingency operation related to a nuclear, biological,
    chemical, or radiological attack, as determined by the head of the agency. Also, for a contract awarded
    and performed, or purchase made, inside the United States, the micro-purchase threshold is $15,000; for a
    contract awarded and performed, or purchase made, outside the United States, it is $25,000.
                                                                                                   10



ODIN’s resources for handling the increased work, we reviewed relevant performance
metrics and requirements in the ODIN contracts.

One ODIN contract requirement was that all items purchased from the ODIN catalogs
must be installed and operational within 5 working days of order for an “enhanced” user
and 10 working days of order for a “regular” user. Another contract requirement was that
ODIN must meet certain performance threshold ratings for different services provided.
Performance metrics include customer satisfaction, service delivery, and service
availability.

We summarized and averaged data from ODIN’s metric rating reports for FY 2007 (the
year before the MFR recommendations were implemented) and the first quarter of
FY 2008 (the first quarter the recommendations were in force). Our calculated averages
for the performance ratings are shown in Table 2.

Table 2. Comparisons between Required Performance Rating and Actual Rating
                                                                        Actual Rating
    ODIN Desktop             Contract-Required               FY 2007            First Quarter FY 2008
    Metric Reports                 Rating              (10/01/06–09/30/07)       (10/01/07–12/31/07)
Customer Satisfaction           92.00–95.00a                   96.17                    95.91
Service Delivery                    98.00                      99.07                    98.62
Service Availability                98.00                      99.76                    99.76
    a
      This number varies with each Center, in accordance with the contracts.

The data from the ODIN performance metrics reports indicate that ODIN complied with
the performance standards and workload requirements of its contracts. We concluded
that since there was no performance degradation, ODIN supplied sufficient personnel and
equipment to adequately service the increased workload.

Agency Guidance Was Adequate to Address the Increased Use of ODIN
We found that the Agency’s plan for implementing the consolidation of IT purchases
through ODIN tasked each Center with the responsibility for developing transition plans
and procurement policies for their Center staff. Timelines for implementing transition
plans were on a Center-by-Center basis. At the three Centers we visited—Goddard Space
Flight Center (Goddard), Kennedy Space Center (Kennedy), and Stennis Space Center
(Stennis)—plans and procedures for consolidating IT purchases through ODIN were
implemented at different times and on different implementation schedules.

Kennedy was the only Center to implement consolidation of IT purchases through ODIN
before the end of FY 2007, but Kennedy also issued procedures for implementing the
expanded use of ODIN right after the staff was notified. At Stennis and Goddard,
transition plans were implemented after FY 2007 ended, and procedures were outlined
and outreach provided at these two Centers before implementation of the consolidation
plans. We interviewed procurement personnel at Kennedy, Stennis, and Goddard to find
out what strategies they used.
                                                                                          11



      •    At Kennedy, the MFR recommendations were implemented on July 19, 2007. On
           July 24, 2007, the Kennedy credit card purchases coordinator issued an e-mail
           prohibiting commercial off-the-shelf IT purchases made with a Center-issued
           credit card. Procurement personnel told us they were initially concerned that they
           could not adequately support their operations and also comply with the
           recommendations. On July 25, 2007, Kennedy established an ODIN Web page
           that provided the relevant procedures for making purchases through ODIN. Also,
           Center management met with purchasing personnel on July 26, 2007, and held
           town-hall meetings on August 23, 2007, where procedures were further explained.
           According to the Kennedy personnel interviewed, their initial concerns were
           generally alleviated by the end of August 2007 as a result of Kennedy
           management’s outreach efforts and explanations.

      •    At Stennis, implementation of the MFR recommendations was delayed until
           after October 1, 2007, so that operational procedures could be developed and
           communicated to Stennis procurement personnel. Since the October 2007
           implementation, Stennis personnel noted that there had been procedural changes
           to making IT purchases, but they expressed no concerns about supporting
           NASA operations using ODIN.

      •    At Goddard, the MFR recommendations were fully or partially implemented by
           May 2008. Partial implementation was the result of Goddard delaying
           implementation for scientific processors and workstations.

We appreciate the courtesies extended during our review. If you have any questions, or
need additional information, please contact Ms. Wen Song, Information Technology
Director, at 202-358-2588.


       signed
Evelyn R. Klemstine

2 Enclosures

cc:       NASA Administrator
          NASA Chief Information Officer
          NASA Associate Administrator for Institutions and Management
          NASA Assistant Administrator for Procurement
          NASA Shared Services Center, Office of Procurement,
           Chief, Contract Management Branch
          Kennedy Space Center, Chief Information Officer
          Kennedy Space Center, Aerospace Technologist
          Kennedy Space Center, Biomedical Office
          Langley Research Center, Chemistry and Dynamics Assistant Branch, Science
           Directorate
                              Scope and Methodology
We performed this review from November 2007 through August 2008. The review was
performed in accordance with generally accepted government auditing standards. Those
standards require that we plan our review to obtain sufficient and appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our review
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our review objectives.

The fieldwork for this review was conducted at Goddard Space Flight Center, NASA
Headquarters, Kennedy Space Center, Stennis Space Center, and NSSC at Stennis.

The impetus for this review was, initially, a complaint we received via a U.S. Senator and
two additional complaints received through the OIG Hot Line. All the complaints alleged
excessive markups on purchases made through ODIN’s eCatalog. We used the Internet
to find and compare prices against ODIN eCatalog pricing because the complainants used
the Internet and we were trying to determine the credibility of their complaints and
reasonableness of the ODIN eCatalog pricing. As a part of this review, we selected a
cross section of 25 category 3 items from the ODIN eCatalog and compared their prices
to prices for the same items available on the Internet. Our item choice was representative
of different types of category 3 hardware and software items from the 485 items listed in
the ODIN eCatalog. We focused our comparison on category 3 items because the
complaints we received were related to category 3 purchases. Our cross section included
accessory/input device, communication hardware, hand-held organizers, mass storage,
memory, multimedia hardware, power protection, printers and plotters, and a video
display/adapter. Our results identified that 21 of 25 items were priced an average of
27.37 percent higher in the ODIN eCatalog than on the Internet.

We did not review category 2 IT purchases because they were non-ODIN supported
hardware and software systems. Non-ODIN supported hardware and software systems
include those supported by the Government or through non-ODIN contracts.

We reviewed documents related to ODIN contracts NAS5-98144 and NAS5-98145, as
they related to MFR Recommendations. We also interviewed the three complainants—
two at Kennedy and one at Langley—the MFR team, an official from NASA Office of
Chief Information Officer, the Assistant Administrator for the Office of Small Business
Programs, the Assistant Administrator for Procurement, the NSSC Director of
Procurement Division, NSSC Chief of Procurement Operations, ODIN representatives,
the ODIN contracting officer, and other relevant personnel. We reviewed documents
provided by complainants, NASA officials, and ODIN representatives.

Prior Coverage. During the last 5 years, the NASA Office of Inspector General (OIG)
issued one report of particular relevance to the subject of this memorandum. Unrestricted
reports can be accessed over the Internet at http://oig.nasa.gov/audits/reports/FY08.

“Opportunities for Cost Savings in Purchasing Peripherals and Accessory Equipment and
Supplies for Desktop Computing Services” (IG-03-020, July 18, 2003)

                                                                              Enclosure 1
                                                                              Page 1 of 1
Management’s Comments




                        Enclosure 2
                        Page 1 of 2
Enclosure 2
Page 2 of 2
